1a
961 F.3d 721
United States Court of Appeals, Fifth Circuit.
Maritza AMADOR, Individually and as
Representative of the Estate of Gilbert Flores and
as Next Friend of Minor R.M.F.; Vanessa Flores;
Marisela Flores; Carmen Flores; Rogelio Flores,
Plaintiffs-Appellees
v.
Officer Greg VASQUEZ, Individually and
in his Official Capacity; Officer Robert Sanchez,
Individually and in his Official Capacity,
Defendants-Appellants
No. 17-51001
|
FILED June 3, 2020
Appeal from the United States District Court for the
Western District of Texas
Attorneys and Law Firms
Matthew J. Kita, Dallas, TX, Robert Paul Wilson,
Thomas J. Henry Injury Attorneys, San Antonio, TX,
for Plaintiffs - Appellees.
Charles Straith Frigerio, Esq., Trial Attorney, Law Offices of Charles S. Frigerio, P.C., San Antonio, TX, for
Defendants - Appellants.
Before HIGGINBOTHAM, GRAVES, and WILLETT,
Circuit Judges.

2a
ON PETITION FOR REHEARING
JAMES E. GRAVES, JR., Circuit Judge
Treating the petition for en banc rehearing as a
petition for panel rehearing, we grant rehearing, withdraw our opinion dated March 11, 2020, and substitute
the following opinion:
While responding to a domestic violence call,
Bexar County Sheriff ’s Deputies Greg Vasquez and
Robert Sanchez shot and killed knife-armed Gilbert
Flores after a twelve-minute encounter that ended
with Flores standing nearly thirty feet from the deputies, motionless, and with his hands in the air. Flores’s
wife and other surviving family members (collectively,
the “Estate” or “Plaintiffs”) brought a 42 U.S.C. § 1983
claim against the deputies, alleging that Vasquez and
Sanchez violated Flores’s Fourth Amendment right to
be free from excessive force. The deputies moved for
summary judgment based on qualified immunity. The
district court denied the motion, finding that there
were genuine issues of material fact. The deputies filed
this interlocutory appeal. Because we agree with the
district court that genuine issues of material fact exist,
we lack jurisdiction to review this appeal. Accordingly,
we DISMISS.

3a
SUMMARY JUDGMENT EVIDENCE1
In 2015, after a domestic dispute between Flores
and his wife at Flores’s mother’s home, Flores’s mother
called 9-1-1 for assistance. According to the 9-1-1 call
transcript, Flores’s mother told the dispatcher that
Flores beat up his wife and had “gone crazy”. Deputies
Vasquez and Sanchez were dispatched to the residence
in separate vehicles. While in route, dispatch advised
Vasquez and Sanchez that Flores was upset, and that
Flores wanted to commit “suicide by cop.”2 Vasquez was
also informed that Flores had a knife.

1

These facts are gleaned from the record on appeal and the
district court findings. See Wagner v. Bay City, 227 F.3d 316, 320
(5th Cir. 2000) (“In deciding an interlocutory appeal of a denial of
qualified immunity, we can review the materiality of any factual
disputes, but not their genuineness.”) (emphasis in original). The
record contains an audiovisual recording of the encounter filmed
by a bystander with a phone. The enhanced video may be accessed
via the following internet link: http://www.ca5.uscourts.gov/opinions/
pub/17/17-51001.mp4. We analyze the video evidence to determine whether it “utterly discredit[s]” the Estate’s version of
events such that “no reasonable jury could have believed [the
Estate].” See Scott v. Harris, 550 U.S. 372, 380, 127 S.Ct. 1769,
167 L.Ed.2d 686 (2007); see also Carnaby v. City of Houston, 636
F.3d 183, 187 (5th Cir. 2011) (“A court of appeals need not rely
on [a] description of the facts where the record discredits that
description but should instead consider the facts in light depicted
by the videotape.”) (citation and internal quotation marks omitted). We determine that the video does not utterly discredit the
Estate’s version of events or the district court’s determinations
regarding the genuineness of facts.
2
Flores could be heard during the 9-1-1 call saying, “I got a
knife and I’m going to suicide by cop, so bring a SWAT team, or
uh uh uh or whoever is going to be ready to pull the trigger because I’m going to die today.”

4a
Twelve minutes elapsed between Vasquez’s arrival and the officers’ fatal shots at Flores.3 During those
twelve minutes, the deputies had a number of encounters with Flores, and ultimately deescalated the situation. It was only after Flores was standing nearly
thirty feet from the deputies, motionless, and with his
hands in the air for several seconds that the officers
looked at each other and then decided to shoot Flores.
The officers each fired a shot, and Flores fell to the
ground. Viewing the facts in the light most favorable
to the Estate, Tolan v. Cotton, 572 U.S. 650, 655–56, 134
S.Ct. 1861, 188 L.Ed.2d 895 (2014), we summarize the
encounters.
Encounter #1
Vasquez arrived at the residence first, went into
the house, and had an altercation with Flores who was
holding a fixed blade Ozark Trail knife. Vasquez attempted to calm Flores and told him, “put the knife
down, you’re going to be alright.” Flores began approaching Vasquez, and Vasquez retreated out of the
residence.
Encounter #2
Not long after Vasquez retreated out-side, Flores
exited the residence with the knife in hand and allegedly stabbed at Vasquez, striking Vasquez’s protective

3

Sanchez arrived one minute after Vasquez.

5a
shield. During this altercation, Sanchez arrived. Flores
then began retreating toward the house.
Encounter #3
As Flores retreated toward the house, Sanchez
fired one shot at Flores and missed.
Encounter #4
Flores went back to the residence, retrieved two
metal folding chairs, and came back outside. While still
holding at least one of the folding chairs, Flores allegedly came at Vasquez with the knife. Vasquez blocked
the knife with his protective shield and deployed his
taser at Flores. The taser missed Flores and hit a chair
in Flores’s hand, and its wires became entangled with
the chair. Vasquez then struck Flores with the taser
gun and dropped it from his hand. Flores then went
back toward the residence.
At some point around this time, a bystander began
videotaping the encounter on a phone.
Encounter #5
For the first few minutes of the video, Flores, wearing only shorts and flip flops, and the officers, each
holding a gun, talked and maintained distance from
each other: Flores closer to the residence and the officers in or near the street. Around minute marker 4:20,
Flores picked up the two metal chairs and walked
toward the police officers in the street. The officers

6a
retreated, walking backwards away from Flores. Flores
picked up the deployed taser that Vasquez dropped,
walked back to the lawn, dropped the chairs, and
chucked the taser away from the officers. The officers
continued to retreat, backing away from Flores.4 See
Video at 5:20–24.
Encounter #6
For over a minute, Flores talked and gestured at
the officers from the lawn area, remaining some distance away from the officers. During this time, the
officers were not in the video and when they reappeared, they were in the street beyond the neighbor’s
residence. Flores then jogged back toward the house,
picked up the chairs on the lawn, and placed the chairs
on the porch. Around the seven-minute mark, Flores
trotted and walked toward the officers’ unlocked patrol
SUV, which had an AR-15 inside and keys in the ignition. While Flores was on the other side of the patrol
SUV, he was out of view of the video recording. The officers, in view, jogged toward the vehicle and Vasquez
pointed his gun at Flores. See Video at 7:10.
Flores walked away from the vehicle and toward
the officers, talking and gesturing, then went back toward the vehicle. The officers advanced toward Flores.
Flores was out of view of the camera until he again
walked away from the vehicle. In full view of the video
recording, Flores then stood in the driveway of the
4

The officers contend that Flores attempted to activate the
taser against them.

7a
residence, some steps away from the SUV, and some
distance from the officers. At 7:32, Flores moved the
knife from his right hand to his left hand. Sanchez had
his gun drawn. At 7:33, Flores stood stationary in the
driveway.
Encounter #7
At 7:34, Flores was stationary in the driveway, approximately thirty feet from Vasquez, who was in the
street with a protective shield and drawn gun. Sanchez
was approximately thirty feet from Flores as well.
Flores was closer to the SUV than he was to the officers. At 7:35, Flores, still stationary in the driveway, put
both arms up in the air with his hands above his head
and the knife in his palm and remained motionless.
There was nothing behind the officers hindering their
ability to retreat backwards. For about five seconds,
Flores did not advance toward the officers, the vehicle,
or the home.
Encounter #8
While Flores stood motionless with his hands in
the air, Sanchez turned to look toward Vasquez. At
about 7:37, Vasquez and Sanchez fatally shot Flores,
who stood motionless in a surrender pose. Flores fell
backward onto the pavement.

8a
PROCEDURAL HISTORY
The Estate sued the county and the officers under
§ 1983 for excessive force. The county and the officers
moved for summary judgment. The officers argued that
they were entitled to qualified immunity. The district
court granted the county’s motion and denied the officers’ motion. In denying the officers’ request for qualified immunity, the district court determined there
were genuine issues of material fact, and construing
the facts in favor of Plaintiffs, the deputies’ use of
deadly force was objectively unreasonable. The district
court found that the deputies’ use of deadly force was
unreasonable because Flores, “who was stationary for
several seconds and put his hands in the air while remaining otherwise motionless, was no longer resisting
and had signaled surrender.” The officers now appeal.
JURISDICTION AND STANDARD OF REVIEW
This court has jurisdiction over appeals from a district court’s final decision. 28 U.S.C. § 1291. “Ordinarily, [this court does] not have jurisdiction to review a
denial of a summary judgment motion because such a
decision is not final within the meaning of 28 U.S.C.
§ 1291.” Perniciaro v. Lea, 901 F.3d 241, 250 (5th Cir.
2018) (citation and internal quotation marks omitted).
“However, the ‘denial of qualified immunity on a motion for summary judgment is immediately appealable
if it is based on a conclusion of law.’ ” Id. (quoting
Palmer v. Johnson, 193 F.3d 346, 350 (5th Cir. 1999)).
“We have no jurisdiction to hear an interlocutory

9a
appeal, however, when a district court’s denial of qualified immunity rests on the basis that genuine issues
of material fact exist.” Michalik v. Hermann, 422 F.3d
252, 257 (5th Cir. 2005).
“Because of this case’s posture . . . review is limited to determining whether the factual disputes that
the district court identified are material to the application of qualified immunity.” Samples v. Vadzemnieks,
900 F.3d 655, 660 (5th Cir. 2018) (emphasis omitted);
see also Mitchell v. Mills, 895 F.3d 365, 369 (5th Cir.
2018) (concluding that the court’s “review is limited to
evaluating only the legal significance of the undisputed facts”).
This court accepts “plaintiff ’s version of the facts
as true and [reviews the facts] through the lens of qualified immunity.” Samples, 900 F.3d at 660. “If the defendant would still be entitled to qualified immunity
under this view of the facts, then any disputed fact issues are not material, the district court’s denial of summary judgment was improper, and [this court] must
reverse; otherwise, the disputed factual issues are material and [this court] lack[s] jurisdiction over the appeal.” Lytle v. Bexar County., 560 F.3d 404, 409 (5th Cir.
2009). Put another way, “[i]f a factual dispute must be
resolved to make the qualified immunity determination, that fact issue is material and we lack jurisdiction
over the appeal.” Manis v. Lawson, 585 F.3d 839, 843
(5th Cir. 2009).
The court reviews materiality and legal conclusions de novo. Hampton v. Oktibbeha Cty. Sheriff Dep’t,

10a
480 F.3d 358, 364 (5th Cir. 2007). The “scope of clearly
established law and the objective reasonableness of
those acts of the defendant that the district court found
the plaintiff could prove at trial are legal issues we review de novo.” Thompson v. Upshur County., 245 F.3d
447, 456 (5th Cir. 2001).
DISCUSSION
“Qualified immunity shields from liability ‘all but
the plainly incompetent or those who knowingly violate the law.’ ” Romero v. City of Grapevine, 888 F.3d
170, 176 (5th Cir. 2018) (quoting Malley v. Briggs, 475
U.S. 335, 341, 106 S.Ct. 1092, 89 L.Ed.2d 271 (1986)).
“In determining whether an officer is entitled to qualified immunity, courts engage in a two-step inquiry.” Id.
“The first asks whether the facts, ‘[t]aken in the light
most favorable to the party asserting the injury, . . .
show the officer’s conduct violated a [federal] right[.]’ ”
Tolan, 572 U.S. at 655–56, 134 S.Ct. 1861 (quoting
Saucier v. Katz, 533 U.S. 194, 201, 121 S.Ct. 2151, 150
L.Ed.2d 272 (2001)). The second “asks whether the
right in question was ‘clearly established’ at the time
of the violation.” Id. at 656, 134 S.Ct. 1861 (citing Hope
v. Pelzer, 536 U.S. 730, 739, 122 S.Ct. 2508, 153 L.Ed.2d
666 (2002)).
I.

The Officers Violated Flores’s Fourth Amendment Right

The first question in the qualified immunity analysis is whether Officers Vasquez and Sanchez violated

11a
Flores’s Fourth Amendment right to be free from excessive force.5 See Romero, 888 F.3d at 176. When the
facts here are taken in the light most favorable to
Plaintiffs, the answer is yes.
“The use of deadly force violates the Fourth
Amendment unless ‘the officer[s] [have] probable cause
to believe that the suspect poses a threat of serious
physical harm, either to the officer[s] or to others.’ ” Id.
(quoting Tennessee v. Garner, 471 U.S. 1, 11, 105 S.Ct.
1694, 85 L.Ed.2d 1 (1985)). To prevail on an excessive
force claim, plaintiffs must show that the force employed was objectively unreasonable. Graham v. Connor, 490 U.S. 386, 397, 109 S.Ct. 1865, 104 L.Ed.2d 443
(1989). “Excessive force claims are necessarily fact-intensive; whether the force used is ‘excessive’ or ‘unreasonable’ depends on the facts and circumstances of
each particular case.” Darden, 880 F.3d at 728 (citation
and internal quotation marks omitted). “In making
this determination, a court should consider the totality
of the circumstances, ‘including the severity of the
crime at issue, whether the suspect poses an immediate threat to the safety of the officers or others, and
whether he is actively resisting arrest or attempting
to evade arrest by flight.’” Id. at 728–29 (quoting
Graham, 490 U.S. at 396, 109 S.Ct. 1865). “The ‘reasonableness’ of a particular use of force must be judged
5

Because it is alleged that the officers acted in unison, we
need not separately address the qualified immunity analysis for
each officer. See Darden v. City of Fort Worth, 880 F.3d 722, 731
(5th Cir.), cert. denied sub nom. City of Fort Worth v. Darden, ___
U.S. ___, 139 S. Ct. 69, 202 L.Ed.2d 23 (2018).

12a
from the perspective of a reasonable officer on the
scene, rather than with the 20/20 vision of hindsight.”
Id. at 729 (citation and internal quotation marks omitted). “The calculus of reasonableness must embody allowance for the fact that police officers are often forced
to make split-second judgments—in circumstances
that are tense, uncertain, and rapidly evolving—about
the amount of force that is necessary in a particular
situation.” Id. (citation and internal quotation marks
omitted). However, “[t]he question is one of objective
reasonableness, not subjective intent, and an officer’s
conduct must be judged in light of the circumstances
confronting him, without the benefit of hindsight.”
Manis, 585 F.3d at 843 (citation and internal quotation
marks omitted).
Further, “[i]t is well-established that ‘[t]he excessive force inquiry is confined to whether the [officers or
other persons were] in danger at the moment of the
threat that resulted in the [officers’ use of deadly
force].’ ” Rockwell v. Brown, 664 F.3d 985, 992–93 (5th
Cir. 2011) (quoting Bazan ex rel. Bazan v. Hidalgo
County., 246 F.3d 481, 493 (5th Cir. 2001)) (emphasis
omitted). So, the focus of the inquiry should be on “the
act that led [the officer] to discharge his weapon[.]”
Manis, 585 F.3d at 845.
Applying that framework, the district court found
three genuine disputes of material fact that barred
qualified immunity because resolving those facts in
Plaintiffs’ favor led the court to conclude that shooting
Flores was objectively unreasonable. The district court
found the relevant, genuine disputes of material fact

13a
to be: (1) “whether Flores did open the door or did look
inside to see the keys in the ignition or see the weapon
that was inside the SUV”; (2) whether Flores tried to
activate the taser against the officers; and (3) what occurred in the moments before the deputies shot Flores.
Considering the totality of the circumstances, focusing on the act that led the officers to discharge their
weapons, and without reviewing the district court’s decision that genuine factual disputes exist, see Kinney v.
Weaver, 367 F.3d 337, 348 (5th Cir. 2004), we conclude
that the genuine issues of material fact identified by
the district court are material, and this case should
proceed to trial.
Relying on their version of the facts, yet purportedly relying on the video, the officers argue that they
reasonably believed that Flores posed a threat of serious harm to the officers or to others.6 According to the
officers, Flores “opened the front passenger door of the
Tahoe Patrol vehicle of Deputy Vasquez, [sic] said vehicle had the keys in the ignition and an AR-15 inside
the vehicle.” They further contend that Flores “picked
up Deputy Vasquez’ [sic] taser from the street and attempted to activate it against Deputy [sic] Vasquez and
Sanchez but was unsuccessful.” Most significantly, the
officers assert that “Deputies Vasquez and Sanchez
were in imminent fear of death or serious bodily injury
by the actions of Gilbert Flores at the time of the
6

The officers present different “scenarios” that would have
justified them using “deadly force.” We refuse to speculate on
whether it would have been reasonable to kill Flores in those scenarios, which are not before this court.

14a
fatal shots.” (emphasis added). However, Plaintiffs assert that at the time Flores was shot, Flores was not
next to the patrol car, Flores had “raised both of his
hands directly above his head with the knife ‘palmed’
in his left hand” and “raised his hands in apparent surrender, stood still, his hands were not moving, his feet
were not moving, he was not moving or advancing toward the Deputies and no family members of [sic]
neighbors were outside or in the vicinity.”
Collectively, these factual disputes are material to
resolving whether the officers reasonably believed that
Flores posed a threat of serious harm at the time of the
shooting. Construing the facts in Plaintiffs’ favor, the
district court found that a “reasonable officer would
have concluded that Flores, who was stationary for
several seconds and put his hands in the air while remaining otherwise motionless, was no longer resisting
and had signaled surrender.” We agree.
Flores had a knife, not a gun; was several feet
away from the officers, the house, and the vehicle; had
his hands in the air in a surrender position; and stood
stationary in the officers’ line of sight. Under these
facts taken in the light most favorable to Plaintiffs,
we conclude that the district court correctly identified
material factual disputes as to whether the officers
violated Flores’s Fourth Amendment rights. Accordingly, we must address the second question of the
analysis.

15a
II.

Flores’s Fourth Amendment Right Was Clearly
Established

The second question in the qualified immunity
analysis is whether clearly established law prohibited
the officers from shooting Flores in these circumstances. City of Escondido v. Emmons, ___ U.S. ___, 139
S. Ct. 500, 503, 202 L.Ed.2d 455 (2019). Again, the answer is yes.
“A clearly established right is one that is ‘sufficiently clear that every reasonable official would have
understood that what he is doing violates that right.’ ”
Mullenix v. Luna, ___ U.S. ___, 136 S. Ct. 305, 308, 193
L.Ed.2d 255 (2015) (per curiam) (quoting Reichle v.
Howards, 566 U.S. 658, 664, 132 S.Ct. 2088, 182
L.Ed.2d 985 (2012)). We cannot “ ‘define clearly established law at a high level of generality,’ ” id. (quoting
Ashcroft v. al-Kidd, 563 U.S. 731, 742, 131 S.Ct. 2074,
179 L.Ed.2d 1149 (2011)), especially in “the Fourth
Amendment context, where the Court has recognized
that ‘[i]t is sometimes difficult for an officer to determine how the relevant legal doctrine, here excessive
force, will apply to the factual situation the officer
confronts,’ ” id. (quoting Katz, 533 U.S. at 205, 121 S.Ct.
2151). “Where constitutional guidelines seem inapplicable or too remote, it does not suffice for a court simply
to state that an officer may not use unreasonable and
excessive force, deny qualified immunity, and then remit the case for a trial on the question of reasonableness.” Kisela v. Hughes, ___ U.S. ___, 138 S. Ct. 1148,
1153, 200 L.Ed.2d 449 (2018) (per curiam). “An officer
‘cannot be said to have violated a clearly established

16a
right unless the right’s contours were sufficiently definite that any reasonable official in the defendant’s
shoes would have understood that he was violating it.’ ”
Id. (quoting Plumhoff v. Rickard, 572 U.S. 765, 778–79,
134 S.Ct. 2012, 188 L.Ed.2d 1056 (2014)). We do “not
require a case directly on point, but existing precedent
must have placed the statutory or constitutional question beyond debate.” Id. at 1152 (citation and internal
quotation marks omitted).
“[T]he salient question . . . is whether the state of
the law in [2015] gave [the officers] fair warning that
their alleged treatment of [Flores] was unconstitutional.” Hope, 536 U.S. at 741, 122 S.Ct. 2508. “[G]eneral statements of the law are not inherently incapable
of giving fair and clear warning” to officers. Id. In fact,
“officials can still be on notice that their conduct violates established law even in novel factual circumstances.” Id. “[T]here can be the rare obvious case,
where the unlawfulness of the officer’s conduct is sufficiently clear even though existing precedent does not
address similar circumstances[.]” Emmons, 139 S. Ct.
at 504 (citation and internal quotation marks omitted).
“In the excessive force context, a constitutional violation is clearly established if no reasonable officer
could believe the act was lawful.” Darden, 880 F.3d at
727. “Our case law makes clear that when an arrestee
is not actively resisting arrest the degree of force an
officer can employ is reduced.” Id. at 731; see Bush v.
Strain, 513 F.3d 492, 502 (5th Cir. 2008) (holding that
it was objectively unreasonable for an officer to slam
an arrestee’s face into a vehicle when the arrestee “was

17a
not resisting arrest or attempting to flee”); Newman v.
Guedry, 703 F.3d 757, 760, 763 (5th Cir. 2012) (holding
that it was objectively unreasonable for officers to tase
an arrestee when the arrestee’s “behavior did not rise
to the level of ‘active resistance,’ ” despite the arrestee’s
alleged noncompliance with orders).
Every reasonable officer would have understood
that using deadly force on a man holding a knife, but
standing nearly thirty feet from the deputies, motionless, and with his hands in the air for several seconds,
would violate the Fourth Amendment. The officers
argue that they were justified in using deadly force because Flores posed an immediate threat at several
instances before their ultimate use of deadly force.
However, “an exercise of force that is reasonable at one
moment can become unreasonable in the next if the
justification for the use of the force has ceased.” Lytle,
560 F.3d at 413. To say otherwise would grant officers
“ ‘an ongoing license to kill an otherwise unthreatening
suspect’ ” who was threatening earlier. Id. (quoting
Abraham v. Raso, 183 F.3d 279, 294 (3d Cir. 1999)).
In Lytle, taking the facts in the light most favorable to the plaintiff, we found that the officer could have
“had sufficient time to perceive that any threat to him
had passed by the time he fired[,]” which was “anywhere from three to ten seconds, perhaps even more”
after the perceived threat, rather than “in near contemporaneity” with the perceived threat. 560 F.3d at
414 (citation and internal quotation marks omitted).
Here, Vasquez and Sanchez had about five seconds to
evaluate Flores, standing thirty feet away from them

18a
with a knife and with his hands in the air, before shooting him. At the time of the shooting, Flores’s right in
this case was “ ‘sufficiently clear that every reasonable
official would have understood that what [the officers
did] violate[d] that right.’ ” Mullenix, 136 S. Ct. at 308
(quoting Reichle, 566 U.S. at 664, 132 S.Ct. 2088).
We find that if a jury accepts Plaintiffs’ version of
the facts as true, particularly as to what occurred in
the moments before the deputies shot Flores, the jury
could conclude that the officers violated Flores’s clearly
established right to be free from excessive force. See
Cole v. Carson, 935 F.3d 444, 447, as revised (5th Cir.
Aug. 21, 2019) (en banc) (“We conclude that it will be
for a jury, and not judges, to resolve the competing factual narratives as detailed in the district court opinion
and the record as to the . . . excessive-force claim.”). Accordingly, there are factual disputes that must be resolved to make the qualified immunity determination,
disputes that are material, and we lack jurisdiction
over this interlocutory appeal. See Manis, 585 F.3d at
843.
CONCLUSION
Because there are genuine issues of material fact
that preclude summary judgment, we lack jurisdiction
to review this appeal and DISMISS.

19a
952 F.3d 624
United States Court of Appeals, Fifth Circuit.
Maritza AMADOR, Individually and as
Representative of The Estate of Gilbert Flores
and as Next Friend of Minor R.M.F.; Vanessa
Flores; Marisela Flores; Carmen Flores;
Rogelio Flores, Plaintiffs – Appellees,
v.
Officer Greg VASQUEZ, Individually and in
his Official Capacity; Officer Robert Sanchez,
Individually and in his Official Capacity,
Defendants – Appellants.
No. 17-51001
|
FILED March 11, 2020
Appeal from the United States District Court for
the Western District of Texas, Robert L. Pitman, U.S.
District Judge
Attorneys and Law Firms
Matthew J. Kita, Dallas, TX, Robert Paul Wilson,
Thomas J. Henry Injury Attorneys, San Antonio, TX,
for Plaintiff-Appellee.
Charles Straith Frigerio, Esq., Trial Attorney, Law Offices of Charles S. Frigerio, P.C., San Antonio, TX, for
Defendant-Appellant.
Before HIGGINBOTHAM, GRAVES, and WILLETT,
Circuit Judges.

20a
Opinion
JAMES E. GRAVES, Circuit Judge:
While responding to a domestic violence call,
Bexar County Sheriff ’s Deputies Greg Vasquez and
Robert Sanchez shot and killed knife-armed Gilbert
Flores after a twelve-minute encounter that ended
with Flores standing nearly thirty feet from the deputies, motionless, and with his hands in the air. Flores’s
wife and other surviving family members (collectively,
the “Estate” or “Plaintiffs”) brought a 42 U.S.C. § 1983
claim against the deputies, alleging that Vasquez and
Sanchez violated Flores’s Fourth Amendment right to
be free from excessive force. The deputies moved for
summary judgment based on qualified immunity. The
district court denied the motion, finding that there
were genuine issues of material fact. The deputies filed
this interlocutory appeal. Because we agree with the
district court that genuine issues of material fact exist,
we lack jurisdiction to review this appeal. Accordingly,
we DISMISS.
SUMMARY JUDGMENT EVIDENCE1
In 2015, after a domestic dispute between Flores
and his wife at Flores’s mother’s home, Flores’s mother
called 9-1-1 for assistance. According to the 9-1-1 call
1

These facts are gleaned from the record on appeal and the
district court findings. See Wagner v. Bay City, 227 F.3d 316, 320
(5th Cir. 2000) (“In deciding an interlocutory appeal of a denial of
qualified immunity, we can review the materiality of any factual
disputes, but not their genuineness.”) (emphasis in original). The

21a
transcript, Flores’s mother told the dispatcher that
Flores beat up his wife and had “gone crazy”. Deputies
Vasquez and Sanchez were dispatched to the residence
in separate vehicles. While in route, dispatch advised
Vasquez and Sanchez that Flores was upset, and that
Flores wanted to commit “suicide by cop.”2 Vasquez was
also informed that Flores had a knife.
Twelve minutes elapsed between Vasquez’s arrival and the officers’ fatal shots at Flores.3 During those
twelve minutes, the deputies had a number of encounters with Flores, and ultimately deescalated the situation. It was only after Flores was standing nearly
thirty feet from the deputies, motionless, and with his
hands in the air for several seconds that the officers
record contains an audiovisual recording of the encounter filmed
by a bystander with a phone. The enhanced video may be accessed
via the following internet link: http://www.ca5.uscourts.gov/
opinions/pub/17/17-51001.mp4. We analyze the video evidence to
determine whether it “utterly discredit[s]” the Estate’s version of
events such that “no reasonable jury could have believed [the Estate].” See Scott v. Harris, 550 U.S. 372, 380, 127 S.Ct. 1769, 167
L.Ed.2d 686 (2007); see also Carnaby v. City of Houston, 636 F.3d
183, 187 (5th Cir. 2011) (“A court of appeals need not rely on [a]
description of the facts where the record discredits that description but should instead consider the facts in light depicted by the
videotape.”) (citation and internal quotation marks omitted). We
determine that the video does not utterly discredit the Estate’s
version of events or the district court’s determinations regarding
the genuineness of facts.
2
Flores could be heard during the 9-1-1 call saying, “I got a
knife and I’m going to suicide by cop, so bring a SWAT team, or
uh uh uh or whoever is going to be ready to pull the trigger because I’m going to die today.”
3
Sanchez arrived one minute after Vasquez.

22a
looked at each other and then decided to shoot Flores.
The officers each fired a shot, and Flores fell to the
ground. Viewing the facts in the light most favorable
to the Estate, Tolan v. Cotton, 572 U.S. 650, 655–56, 134
S.Ct. 1861, 188 L.Ed.2d 895 (2014), we summarize the
encounters.
Encounter #1
Vasquez arrived at the residence first, went into
the house, and had an altercation with Flores who was
holding a fixed blade Ozark Trail knife. Vasquez attempted to calm Flores and told him, “put the knife
down, you’re going to be alright.” Flores began approaching Vasquez, and Vasquez retreated out of the
residence.
Encounter #2
Not long after Vasquez retreated out-side, Flores
exited the residence with the knife in hand and allegedly stabbed at Vasquez, striking Vasquez’s protective
shield. During this altercation, Sanchez arrived. Flores
then began retreating toward the house.
Encounter #3
As Flores retreated toward the house, Sanchez
fired one shot at Flores and missed.

23a
Encounter #4
Flores went back to the residence, retrieved two
metal folding chairs, and came back outside. While still
holding at least one of the folding chairs, Flores allegedly came at Vasquez with the knife. Vasquez blocked
the knife with his protective shield and deployed his
taser at Flores. The taser missed Flores and hit a chair
in Flores’s hand, and its wires became entangled with
the chair. Vasquez then struck Flores with the taser
gun and dropped it from his hand. Flores then went
back toward the residence.
At some point around this time, a bystander began
videotaping the encounter on a phone.
Encounter #5
For the first few minutes of the video, Flores, wearing only shorts and flip flops, and the officers, each
holding a gun, talked and maintained distance from
each other: Flores closer to the residence and the officers in or near the street. Around minute marker 4:20,
Flores picked up the two metal chairs and walked toward the police officers in the street. The officers retreated, walking backwards away from Flores. Flores
picked up the deployed taser that Vasquez dropped,
walked back to the lawn, dropped the chairs, and
chucked the taser away from the officers. The officers

24a
continued to retreat, backing away from Flores.4 See
Video at 5:20–24.
Encounter #6
For over a minute, Flores talked and gestured at
the officers from the lawn area, remaining some distance away from the officers. During this time, the officers were not in the video and when they reappeared,
they were in the street beyond the neighbor’s residence. Flores then jogged back toward the house,
picked up the chairs on the lawn, and placed the chairs
on the porch. Around the seven-minute mark, Flores
trotted and walked toward the officers’ unlocked patrol
SUV, which had an AR-15 inside and keys in the ignition. While Flores was on the other side of the patrol
SUV, he was out of view of the video recording. The officers, in view, jogged toward the vehicle and Vasquez
pointed his gun at Flores. See Video at 7:10.
Flores walked away from the vehicle and toward
the officers, talking and gesturing, then went back toward the vehicle. The officers advanced toward Flores.
Flores was out of view of the camera until he again
walked away from the vehicle. In full view of the video
recording, Flores then stood in the driveway of the residence, some steps away from the SUV, and some distance from the officers. At 7:32, Flores moved the knife
from his right hand to his left hand. Sanchez had his

4

The officers contend that Flores attempted to activate the
taser against them.

25a
gun drawn. At 7:33, Flores stood stationary in the
driveway.
Encounter #7
At 7:34, Flores was stationary in the driveway, approximately thirty feet from Vasquez, who was in the
street with a protective shield and drawn gun. Sanchez
was approximately thirty feet from Flores as well. Flores was closer to the SUV than he was to the officers.
At 7:35, Flores, still stationary in the driveway, put
both arms up in the air with his hands above his head
and the knife in his palm and remained motionless.
There was nothing behind the officers hindering their
ability to retreat backwards. For about five seconds,
Flores did not advance toward the officers, the vehicle,
or the home.
Encounter #8
While Flores stood motionless with his hands in
the air, Sanchez turned to look toward Vasquez. At
about 7:37, Vasquez and Sanchez fatally shot Flores,
who stood motionless in a surrender pose. Flores fell
backward onto the pavement.
PROCEDURAL HISTORY
The Estate sued the county and the officers under
§ 1983 for excessive force. The county and the officers
moved for summary judgment. The officers argued that
they were entitled to qualified immunity. The district

26a
court granted the county’s motion and denied the officers’ motion. In denying the officers’ request for qualified immunity, the district court determined there
were genuine issues of material fact, and construing
the facts in favor of Plaintiffs, the deputies’ use of
deadly force was objectively unreasonable. The district
court found that the deputies’ use of deadly force was
unreasonable because Flores, “who was stationary for
several seconds and put his hands in the air while remaining otherwise motionless, was no longer resisting
and had signaled surrender.” The officers now appeal.
JURISDICTION AND STANDARD OF REVIEW
This court has jurisdiction over appeals from a district court’s final decision. 28 U.S.C. § 1291. “Ordinarily, [this court does] not have jurisdiction to review a
denial of a summary judgment motion because such a
decision is not final within the meaning of 28 U.S.C.
§ 1291.” Perniciaro v. Lea, 901 F.3d 241, 250 (5th Cir.
2018) (citation and internal quotation marks omitted).
“However, the ‘denial of qualified immunity on a motion for summary judgment is immediately appealable
if it is based on a conclusion of law.’ ” Id. (quoting
Palmer v. Johnson, 193 F.3d 346, 350 (5th Cir. 1999)).
“We have no jurisdiction to hear an interlocutory appeal, however, when a district court’s denial of qualified immunity rests on the basis that genuine issues of
material fact exist.” Michalik v. Hermann, 422 F.3d
252, 257 (5th Cir. 2005).

27a
“Because of this case’s posture . . . review is limited to determining whether the factual disputes that
the district court identified are material to the application of qualified immunity.” Samples v. Vadzemnieks,
900 F.3d 655, 660 (5th Cir. 2018) (emphasis omitted);
see also Mitchell v. Mills, 895 F.3d 365, 369 (5th Cir.
2018) (concluding that the court’s “review is limited to
evaluating only the legal significance of the undisputed facts”).
This court accepts “plaintiff ’s version of the facts
as true and [reviews the facts] through the lens of qualified immunity.” Samples, 900 F.3d at 660. “If the defendant would still be entitled to qualified immunity
under this view of the facts, then any disputed fact issues are not material, the district court’s denial of summary judgment was improper, and [this court] must
reverse; otherwise, the disputed factual issues are material and [this court] lack[s] jurisdiction over the appeal.” Lytle v. Bexar County., 560 F.3d 404, 409 (5th Cir.
2009). Put another way, “[i]f a factual dispute must be
resolved to make the qualified immunity determination, that fact issue is material and we lack jurisdiction
over the appeal.” Manis v. Lawson, 585 F.3d 839, 843
(5th Cir. 2009).
The court reviews materiality and legal conclusions de novo. Hampton v. Oktibbeha Cty. Sheriff Dep’t,
480 F.3d 358, 364 (5th Cir. 2007). The “scope of clearly
established law and the objective reasonableness of
those acts of the defendant that the district court found
the plaintiff could prove at trial are legal issues we

28a
review de novo.” Thompson v. Upshur County., 245 F.3d
447, 456 (5th Cir. 2001).
DISCUSSION
“Qualified immunity shields from liability ‘all but
the plainly incompetent or those who knowingly violate the law.’ ” Romero v. City of Grapevine, 888 F.3d
170, 176 (5th Cir. 2018) (quoting Malley v. Briggs, 475
U.S. 335, 341, 106 S.Ct. 1092, 89 L.Ed.2d 271 (1986)).
“In determining whether an officer is entitled to qualified immunity, courts engage in a two-step inquiry.” Id.
“The first asks whether the facts, ‘[t]aken in the light
most favorable to the party asserting the injury, . . .
show the officer’s conduct violated a [federal] right [.]’ ”
Tolan, 572 U.S. at 655–56, 134 S.Ct. 1861 (quoting
Saucier v. Katz, 533 U.S. 194, 201, 121 S.Ct. 2151, 150
L.Ed.2d 272 (2001)). The second “asks whether the
right in question was ‘clearly established’ at the time
of the violation.” Id. at 656, 134 S.Ct. 1861 (citing Hope
v. Pelzer, 536 U.S. 730, 739, 122 S.Ct. 2508, 153 L.Ed.2d
666 (2002)).
I.

The Officers Violated Flores’s Fourth Amendment Right

The first question in the qualified immunity analysis is whether Officers Vasquez and Sanchez violated
Flores’s Fourth Amendment right to be free from excessive force.5 See Romero, 888 F.3d at 176. When the
5

Because it is alleged that the officers acted in unison, we
need not separately address the qualified immunity analysis for

29a
facts here are taken in the light most favorable to
Plaintiffs, the answer is yes.
“The use of deadly force violates the Fourth
Amendment unless ‘the officer[s] [have] probable cause
to believe that the suspect poses a threat of serious
physical harm, either to the officer[s] or to others.’ ” Id.
(quoting Tennessee v. Garner, 471 U.S. 1, 11, 105 S.Ct.
1694, 85 L.Ed.2d 1 (1985)). To prevail on an excessive
force claim, plaintiffs must show that the force employed was objectively unreasonable. Graham v. Connor, 490 U.S. 386, 397, 109 S.Ct. 1865, 104 L.Ed.2d 443
(1989). “Excessive force claims are necessarily fact-intensive; whether the force used is ‘excessive’ or ‘unreasonable’ depends on the facts and circumstances of
each particular case.” Darden, 880 F.3d at 728 (citation
and internal quotation marks omitted). “In making
this determination, a court should consider the totality
of the circumstances, ‘including the severity of the
crime at issue, whether the suspect poses an immediate threat to the safety of the officers or others, and
whether he is actively resisting arrest or attempting to
evade arrest by flight.’ ” Id. at 728–29 (quoting Graham, 490 U.S. at 396, 109 S.Ct. 1865). “The ‘reasonableness’ of a particular use of force must be judged
from the perspective of a reasonable officer on the
scene, rather than with the 20/20 vision of hindsight.”
Id. at 729 (citation and internal quotation marks omitted). “The calculus of reasonableness must embody
each officer. See Darden v. City of Fort Worth, 880 F.3d 722, 731
(5th Cir.), cert. denied sub nom. City of Fort Worth v. Darden, ___
U.S. ___, 139 S. Ct. 69, 202 L.Ed.2d 23 (2018).

30a
allowance for the fact that police officers are often
forced to make split-second judgments—in circumstances that are tense, uncertain, and rapidly evolving—about the amount of force that is necessary in a
particular situation.” Id. (citation and internal quotation marks omitted). However, “[t]he question is one of
objective reasonableness, not subjective intent, and an
officer’s conduct must be judged in light of the circumstances confronting him, without the benefit of hindsight.” Manis, 585 F.3d at 843 (citation and internal
quotation marks omitted).
Further, “[i]t is well-established that ‘[t]he excessive force inquiry is confined to whether the [officers or
other persons were] in danger at the moment of the
threat that resulted in the [officers’ use of deadly
force].’ ” Rockwell v. Brown, 664 F.3d 985, 992–93 (5th
Cir. 2011) (quoting Bazan ex rel. Bazan v. Hidalgo
County., 246 F.3d 481, 493 (5th Cir. 2001)) (emphasis
omitted). So, the focus of the inquiry should be on “the
act that led [the officer] to discharge his weapon[.]” Manis, 585 F.3d at 845.
Applying that framework, the district court found
three genuine disputes of material fact that barred
qualified immunity because resolving those facts in
Plaintiffs’ favor led the court to conclude that shooting
Flores was objectively unreasonable. The district court
found the relevant, genuine disputes of material fact
to be: (1) “whether Flores did open the door or did look
inside to see the keys in the ignition or see the weapon
that was inside the SUV”; (2) whether Flores tried to

31a
activate the taser against the officers; and (3) what occurred in the moments before the deputies shot Flores.
Considering the totality of the circumstances, focusing on the act that led the officers to discharge their
weapons, and without reviewing the district court’s decision that genuine factual disputes exist, see Kinney v.
Weaver, 367 F.3d 337, 348 (5th Cir. 2004), we conclude
that the genuine issues of material fact identified by
the district court are material, and this case should
proceed to trial.
Relying on their version of the facts, yet purportedly relying on the video, the officers argue that they
reasonably believed that Flores posed a threat of serious harm to the officers or to others.6 According to the
officers, Flores “opened the front passenger door of the
Tahoe Patrol vehicle of Deputy Vasquez, [sic] said vehicle had the keys in the ignition and an AR-15 inside
the vehicle.” They further contend that Flores “picked
up Deputy Vasquez’ [sic] taser from the street and attempted to activate it against Deputy [sic] Vasquez and
Sanchez but was unsuccessful.” Most significantly, the
officers assert that “Deputies Vasquez and Sanchez
were in imminent fear of death or serious bodily injury
by the actions of Gilbert Flores at the time of the fatal
shots.” (emphasis added). However, Plaintiffs assert
that at the time Flores was shot, Flores was not next
to the patrol car, Flores had “raised both of his hands
6

The officers present different “scenarios” that would have
justified them using “deadly force.” We refuse to speculate on
whether it would have been reasonable to kill Flores in those scenarios, which are not before this court.

32a
directly above his head with the knife ‘palmed’ in his
left hand” and “raised his hands in apparent surrender,
stood still, his hands were not moving, his feet were not
moving, he was not moving or advancing toward the
Deputies and no family members of [sic] neighbors
were outside or in the vicinity.”
Collectively, these factual disputes are material to
resolving whether the officers reasonably believed that
Flores posed a threat of serious harm at the time of the
shooting. Construing the facts in Plaintiffs’ favor, the
district court found that a “reasonable officer would
have concluded that Flores, who was stationary for
several seconds and put his hands in the air while remaining otherwise motionless, was no longer resisting
and had signaled surrender.” We agree.
Flores had a knife, not a gun; was several feet
away from the officers, the house, and the vehicle; had
his hands in the air in a surrender position; and stood
stationary in the officers’ line of sight. Under these
facts taken in the light most favorable to Plaintiffs, we
conclude that the district court correctly identified material factual disputes as to whether the officers violated Flores’s Fourth Amendment rights. Accordingly,
we must address the second question of the analysis.
II.

Flores’s Fourth Amendment Right Was Clearly
Established

The second question in the qualified immunity
analysis is whether clearly established law prohibited

33a
the officers from shooting Flores in these circumstances. City of Escondido v. Emmons, __ U.S. ___, 139
S. Ct. 500, 503, 202 L.Ed.2d 455 (2019). Again, the answer is yes.
“A clearly established right is one that is ‘sufficiently clear that every reasonable official would have
understood that what he is doing violates that right.’ ”
Mullenix v. Luna, ___ U.S. ___, 136 S. Ct. 305, 308, 193
L.Ed.2d 255 (2015) (per curiam) (quoting Reichle v.
Howards, 566 U.S. 658, 664, 132 S.Ct. 2088, 182
L.Ed.2d 985 (2012)). We cannot “ ‘define clearly established law at a high level of generality,’ ” id. (quoting
Ashcroft v. al-Kidd, 563 U.S. 731, 742, 131 S.Ct. 2074,
179 L.Ed.2d 1149 (2011)), especially in “the Fourth
Amendment context, where the Court has recognized
that ‘[i]t is sometimes difficult for an officer to determine how the relevant legal doctrine, here excessive
force, will apply to the factual situation the officer confronts,’ ” id. (quoting Katz, 533 U.S. at 205, 121 S.Ct.
2151). “Where constitutional guidelines seem inapplicable or too remote, it does not suffice for a court simply
to state that an officer may not use unreasonable and
excessive force, deny qualified immunity, and then remit the case for a trial on the question of reasonableness.” Kisela v. Hughes, __ U.S. ___, 138 S. Ct. 1148,
1153, 200 L.Ed.2d 449 (2018) (per curiam). “An officer
‘cannot be said to have violated a clearly established
right unless the right’s contours were sufficiently definite that any reasonable official in the defendant’s
shoes would have understood that he was violating it.’ ”
Id. (quoting Plumhoff v. Rickard, 572 U.S. 765, 778–79,

34a
134 S.Ct. 2012, 188 L.Ed.2d 1056 (2014)). We do “not
require a case directly on point, but existing precedent
must have placed the statutory or constitutional question beyond debate.” Id. at 1152 (citation and internal
quotation marks omitted).
“[T]he salient question . . . is whether the state of
the law in [2015] gave [the officers] fair warning that
their alleged treatment of [Flores] was unconstitutional.” Hope, 536 U.S. at 741, 122 S.Ct. 2508. “[G]eneral statements of the law are not inherently incapable
of giving fair and clear warning” to officers. Id. In fact,
“officials can still be on notice that their conduct violates established law even in novel factual circumstances.” Id. “[T]here can be the rare obvious case,
where the unlawfulness of the officer’s conduct is sufficiently clear even though existing precedent does not
address similar circumstances[.]” Emmons, 139 S. Ct.
at 504 (citation and internal quotation marks omitted).
“In the excessive force context, a constitutional violation is clearly established if no reasonable officer
could believe the act was lawful.” Darden, 880 F.3d at
727. “Our case law makes clear that when an arrestee
is not actively resisting arrest the degree of force an
officer can employ is reduced.” Id. at 731; see Bush v.
Strain, 513 F.3d 492, 502 (5th Cir. 2008) (holding that
it was objectively unreasonable for an officer to slam
an arrestee’s face into a vehicle when the arrestee “was
not resisting arrest or attempting to flee”); Newman v.
Guedry, 703 F.3d 757, 760, 763 (5th Cir. 2012) (holding
that it was objectively unreasonable for officers to tase
an arrestee when the arrestee’s “behavior did not rise

35a
to the level of ‘active resistance,’ ” despite the arrestee’s
alleged noncompliance with orders).
A reasonable officer would have understood that
using deadly force on a man holding a knife, but standing nearly thirty feet from the deputies, motionless,
and with his hands in the air for several seconds,
would violate the Fourth Amendment. The officers argue that they were justified in using deadly force because Flores posed an immediate threat at several
instances before their ultimate use of deadly force.
However, “an exercise of force that is reasonable at one
moment can become unreasonable in the next if the
justification for the use of the force has ceased.” Lytle,
560 F.3d at 413. To say otherwise would grant officers
“ ‘an ongoing license to kill an otherwise unthreatening
suspect’ ” who was threatening earlier. Id. (quoting
Abraham v. Raso, 183 F.3d 279, 294 (3d Cir. 1999)).
In Lytle, taking the facts in the light most favorable to the plaintiff, we found that the officer could have
“had sufficient time to perceive that any threat to him
had passed by the time he fired[,]” which was “anywhere from three to ten seconds, perhaps even more”
after the perceived threat, rather than “in near contemporaneity” with the perceived threat. 560 F.3d at
414 (citation and internal quotation marks omitted).
Here, Vasquez and Sanchez had about five seconds to
evaluate Flores, standing thirty feet away from them
with a knife and with his hands in the air, before shooting him. At the time of the shooting, Flores’s right in
this case was “ ‘sufficiently clear that every reasonable
official would have understood that what [the officers

36a
did] violate[d] that right.’ ” Mullenix, 136 S. Ct. at 308
(quoting Reichle, 566 U.S. at 664, 132 S.Ct. 2088).
We find that if a jury accepts Plaintiffs’ version of
the facts as true, particularly as to what occurred in
the moments before the deputies shot Flores, the jury
could conclude that the officers violated Flores’s clearly
established right to be free from excessive force. See
Cole v. Carson, 935 F.3d 444, 447, as revised (5th Cir.
Aug. 21, 2019) (en banc) (“We conclude that it will be
for a jury, and not judges, to resolve the competing factual narratives as detailed in the district court opinion
and the record as to the . . . excessive-force claim.”). Accordingly, there are factual disputes that must be resolved to make the qualified immunity determination,
disputes that are material, and we lack jurisdiction
over this interlocutory appeal. See Manis, 585 F.3d at
843.
CONCLUSION
Because there are genuine issues of material fact
that preclude summary judgment, we lack jurisdiction
to review this appeal and DISMISS.

37a
2017 WL 4562895
Only the Westlaw citation is currently available.
United States District Court, W.D.
Texas, San Antonio Division.
Maritza AMADOR, individually and as
representative of the Estate of Gilbert Flores
and as next friend of minor R.M.F., Vanessa Flores,
Marisela Flores, Carmen Flores, Rogelio Flores,
Plaintiffs,
v.
BEXAR COUNTY, Officer Greg, Vasquez,
individually and in his official, capacity, Robert
Sanchez, individually, and in his official capacity,
Defendants.
No. 5:15–cv–810–RP
|
Signed 10/11/2017
Attorneys and Law Firms
Robert Paul Wilson, Thomas J. Henry Injury Attorneys, San Antonio, TX, Thomas J. Henry, Thomas J.
Henry, Injury Attorneys, Corpus Christi, TX, for Plaintiffs.
Albert Lopez, Law Offices of Albert Lopez, Jacquelyn
Michelle Christilles, Bexar County District Attorney’s
Office, Leslie J.A. Sachanowicz, LaHood & Calfas & Susan A. Bowen, Bexar County District Attorney’s Office,
Charles Straith Frigerio, Attorney at Law San Antonio,
TX, for Defendants.

38a
ORDER
ROBERT PITMAN, UNITED STATES DISTRICT
JUDGE.
Before the Court are two motions: (1) Motion for
Summary Judgment by Defendants Bexar County,
Bexar County Sheriff ’s Office, Gregory Vasquez, in his
official capacity, and Robert Sanchez, in his official capacity, (Dkt. 112); and (2) Motion for Summary Judgment by Defendants Gregory Vasquez and Robert
Sanchez, (Dkt. 110). Having reviewed Defendants’ motions, Plaintiffs’ responses, and the relevant evidence
and case law, the Court issues the following order.
I.

BACKGROUND

Plaintiffs Maritza Amador—individually and as
representative of the Estate of Gilbert Flores and as
next friend of minor R.M.F.—Vanessa Flores, Marisela
Flores, Carmen Flores, and Rogelio Flores filed this
suit in September 2015 as the surviving family members of Gilbert Flores. On August 28, 2015, Gilbert Flores was shot and killed by two deputies with the Bexar
County Sheriff ’s Office—Defendants Gregory Vasquez
and Robert Sanchez. The incident began with a domestic disturbance at Flores’s residence and a call to 911
for assistance. (Plaintiffs’ Response to Bexar County’s
Motion for Summary Judgment, Dkt. 130, at 3). While
en route to the residence in separate vehicles, Bexar
County Sheriff ’s deputies Vasquez and Sanchez were
told by dispatch that Flores was upset and had indicated he wanted to commit “suicide by cop.” Id. Vasquez

39a
arrived first, went to the front door, and had an altercation with Flores, who was holding a knife, outside
the house. Id. Then Sanchez arrived at the house. Id.
The deputies reported on their radio that Flores was
going back into the house. Id. Sanchez fired a shot at
Flores but missed. Id.
Flores went back to the residence, retrieved two
metal folding chairs, and came back outside. (Plaintiffs’ Expert Report, Dkt. 129, Ex. 6, at 12). Flores
allegedly came at Vasquez with the knife, who discharged his Taser and struck the chair Flores was
holding. Id. Vasquez struck Flores with his Taser, and
the Taser fell from Vasquez’s hand onto the street. Id.
at 13. Flores went back towards his residence. Id.
At that point, a bystander began filming the incident on his phone. The video presents a mostly unobstructed view1 of Flores and the deputies in the
approximately eight minutes before the shooting. (See
Flash Drive Containing the Video, Dkt. 131).2 The
1

The points of possible obstruction are as follows. The video,
for the first approximately 45 seconds, is filmed through a window
screen that obscures the view of the scene. At about time stamp
5:15, the deputies walk off screen as they are backing away, at
some distance, from Flores. Flores continues to be visible, but the
deputies do not reappear until approximately minute 7:00. From
that point until the shooting, the video shows Flores and the deputies except for two brief moments Flores can’t be seen because
Vasquez’s patrol car is between Flores and the camera.
2
The flash drive containing the video was brought to the
Clerk’s Office and filed as [131] and [132] “Motion to Supplement”
Plaintiffs’ two responses in opposition to Defendants’ two motions
for summary judgment.

40a
video is taken by a neighbor from his second-floor
apartment. (Plaintiffs’ Expert Report, Dkt. 129, Ex. 6,
at 12). As seen in the video, between the neighbor’s
apartment and Flores’s house is a drainage ditch, an
open grassy area, and the street. The neighbor zooms
in, and the viewer can see the incident unfold. Both
parties claim the video of the incident proves their version of events.
The video begins with the deputies standing, with
their backs to the camera, on the street outside Flores’s
house. Flores, facing the camera, appears at about the
20-second mark standing outside near his front door.
Flores appears to be talking and gesturing and is wearing only long shorts and shoes. The deputies are each
holding a gun, and Vasquez holds a protective shield in
his other hand. For the next several minutes, Flores
continues to talk. At the 4:25 mark on the video, Flores
walks into his front yard and picks up the folding
chairs. At 4:40, he walks onto the street, and the deputies move away from him. At 4:45, he picks up the Taser
off the ground as the deputies continue to distance
themselves. Flores walks back to his front yard, drops
the chairs, and walks back to the street holding the
Taser. Flores throws the Taser in a direction away from
the deputies. Back on his lawn, Flores begins to walk
towards the deputies, who are off camera, and onto his
next door neighbor’s driveway. He continues to talk
and gesture as he backs away from the deputies and
towards his house. At 6:50, he picks up the chairs, unfolds them, and sets them on his front porch.

41a
At 7:05, he walks away the deputies towards
Vasquez’s unlocked patrol car that is parked in the
street, not right at the curb, (Flash drive containing
the video, Dkt. 131), and has keys in the ignition and
an AR–15 inside the car in a “holder,” (Deposition testimony of Vasquez, Dkt. 110, Ex. 5, at 15–16). Because
Flores is on the other side of the car from the camera,
the viewer cannot discern what he does in those moments. Vasquez points his gun at Flores. Flores, who
now appears to be barefoot, walks from the car and towards the deputies while continuing to talk and gesture. The deputies again back away. At 7:20, Flores
walks away from the deputies and back towards the
car. The deputies again advance towards Flores, and
the viewer cannot see Flores while he is on the other
side of the car. Flores reappears at 7:28. He stands in
his driveway, not right next to the car and with some
distance from the deputies. At 7:32, Flores moves the
knife from his right hand to his left hand. Sanchez has
his gun drawn. Deputy Estrada’s patrol car siren is
heard in the background.3
At 7:33, Flores stops walking and stands stationary in the driveway. He is about 29 feet away from
Vasquez who is holding his protective shield and pointing his gun at Flores. (Plaintiffs’ Expert Report, Dkt.
129, Ex. 6, at 16). Vasquez is in the street, standing
next to a black sedan parked at the curb. Id. Sanchez
is standing about 14 feet to the left of Vasquez, further
into the middle of the street, and about 29 feet away
3

Deputy Estrada was en route to the scene as back-up.

42a
from Flores. Id. There is nothing behind the deputies
blocking a possible retreat. Sanchez continues to have
his gun pointed at Flores.
At about 7:35, Flores, still stationary in the driveway, puts both arms up in the air in a surrender pose.
He remains motionless, with his hands in the air, for
several seconds. Sanchez looks to Vasquez, and, according to their testimony, the deputies agree that they
were going to end it. (See, e.g., Deposition testimony of
Vasquez, Dkt. 110, Ex. 5, at 23–24). At about 7:37,
Vasquez shoots Flores, while he is motionless in the
surrender pose, his feet still stationary. Sanchez immediately also shoots Flores, who collapses backwards
onto the pavement and succumbs to the fatal gunshot
wounds. At about 7:50, Estrada arrives and parks on
the street near the black sedan.
II.

STANDARD OF REVIEW

Summary judgment is appropriate under Rule 56
of the Federal Rules of Civil Procedure only “if the movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). A dispute is
“genuine” only if the evidence is such that a reasonable
jury could return a verdict for the nonmoving party.
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 254
(1986). “A fact issue is ‘material’ if its resolution could
affect the outcome of the action.” Poole v. City of Shreveport, 691 F.3d 624, 627 (5th Cir. 2012).

43a
The party moving for summary judgment bears
the initial burden of “informing the district court of the
basis for its motion, and identifying those portions of
[the record] which it believes demonstrates the absence of a genuine issue of material fact.” Celotex Corp.
v. Catrett, 477 U.S. 317, 323 (1986). “[T]he moving party
may [also] meet its burden by simply pointing to an
absence of evidence to support the nonmoving party’s
case.” Boudreaux v. Swift Transp. Co., 402 F.3d 536, 544
(5th Cir. 2005). The burden then shifts to the nonmoving party to establish the existence of a genuine issue
for trial. Matsushita Elec. Indus. Co., Ltd. v. Zenith Radio Corp., 475 U.S. 574, 585–87 (1986); Wise v. E.I.
Dupont de Nemours & Co., 58 F.3d 193, 195 (5th Cir.
1995). “After the non-movant has been given the opportunity to raise a genuine factual issue, if no reasonable
juror could find for the non-movant, summary judgment will be granted.” Miss. River Basin Alliance v.
Westphal, 230 F.3d 170, 174 (5th Cir. 2000).
The parties may satisfy their respective burdens
by tendering depositions, affidavits, and other competent evidence. Topalian v. Ehrman, 954 F.2d 1125, 1131
(5th Cir. 1992). The Court will view this evidence in the
light most favorable to the nonmovant, Rosado v. Deters, 5 F.3d 119, 122 (5th Cir. 1993), and will “not make
credibility determinations or weigh the evidence.”
Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S.
133, 150 (2000).

44a
III. DISCUSSION
In their motions for summary judgment, Defendants make the following arguments:
(a) Bexar County Sheriff ’s Office is not a proper
party and should be dismissed.
(b) The claims against the deputies in their official capacity are redundant and should be dismissed.
(c) The training provided to the deputies by the
Sheriff ’s Office was not insufficient and shows
that there was not deliberate indifference to
the need for training.
(d) The Sheriff ’s Office policy manual regarding
the use of force is not unlawful and does not
demonstrate deliberate indifference.
(e) The Sheriff ’s Office conducted two investigations into the incident that led to Flores’s
death, and those investigations were not inadequate.
(f ) Defendants Vasquez and Sanchez are entitled
to qualified immunity.
In their response, Plaintiffs note that the Bexar
County Sheriff ’s Office was dismissed as a separate
party by the Court on October 15, 2015. (Plaintiff ’s Response to Bexar County Motion for Summary Judgment, Dkt. 130, at 2). Plaintiffs concede that “suing the
Deputies in their official capacity is incorporated
within their claims against Bexar County as the Deputies were within the course and scope of their

45a
employment with the Bexar County Sheriff ’s Office at
the time of the shooting. . . .” Id. Plaintiffs also withdraw their claims against Bexar County for claims related to the investigative and discipline process. Id.
Therefore, Defendants’ arguments before the
Court are narrowed to:
(a) The training provided to the deputies by the
Sheriff ’s Office was not insufficient and shows
that there was not deliberate indifference to
the need for training.
(b) The Sheriff ’s Office policy manual regarding
the use of force is not unlawful and does not
demonstrate deliberate indifference.
(c) Defendants Vasquez and Sanchez are entitled
to qualified immunity.
A. Municipal Liability
Plaintiffs allege Bexar County is liable under Section 1983 because (1) it maintained unconstitutional
policies, and (2) it failed to adequately supervise or
train its deputies. (Dkt. 130). It is well established that
a governmental entity is not liable under Section 1983
on the theory of respondeat superior. Monell v. Dep’t of
Soc. Servs., 436 U.S. 658, 694 (1978). A municipality is
liable only for acts directly attributable to it “through
some official action or imprimatur.” Piotrowski v. City
of Houston, 237 F.3d 567, 578 (5th Cir. 2001). To establish municipal liability under Section 1983, a plaintiff
must show the deprivation of a federally protected
right caused by action taken “pursuant to an official

46a
municipal policy.” See Monell, 436 U.S. at 691. Hence, a
plaintiff must identify: “(1) an official policy (or custom),
of which (2) a policymaker can be charged with actual
or constructive knowledge, and (3) a constitutional violation whose moving force is that policy or custom.”
Pineda v. City of Houston, 291 F.3d 325, 328 (5th Cir.
2002) (internal quotation marks omitted).
1. Bexar County’s Policy Manual
Bexar County argues that (1) the Bexar County
Sheriff ’s Office Manual sets out policies that, “when
read in harmony with each other rather than in isolated pieces,” are not unlawful and do not show deliberate indifference and (2) Plaintiffs fail to show a
causal link between the policies they criticize and this
incident or other instances that would suggest deliberate indifference. (Bexar County’s Motion for Summary
Judgment, Dkt. 112).
The Bexar County Sheriff ’s Office Manual (the
“Policy Manual”), in pertinent part, contains the following provisions on use of force and use of deadly
force. (Policy Manual, Dkt. 112, Ex. 2).
CHAPTER 9 – USE OF FORCE
REV. APRIL 15, 2014
9.01 POLICY
It is the policy of the Bexar County Sheriff ’s Office
that deputies use only the force that reasonably appears necessary to effectively bring an incident under
control, while protecting the lives of the officer and

47a
others the use of force must be objectively reasonable.
The deputy must only use that force which a reasonably prudent officer would use under the same or similar circumstances.
9.02 PURPOSE
*

*

*

B. In each instance of the use of force, the officer
should exhaust every reasonable means of employing the minimum amount of force to affect an
objective before escalating to the next, more forceful method. However, an officer is not required to
engage in prolonged combat or struggle rather
than resorting to that method which will most
quickly and safely bring the situation under control.
*

*

*

F. Where possible, an officer will use verbal persuasion first, followed thereafter in ascending order, by:
1. Physical strength and skill, ranging from restraint and come along holds to hand or foot
strikes;
2. Approved ASP® baton used in the prescribed
manner, chemical agents, Electronic Control Device (ECD)/Electronic Control Weapon (ECW); and
3. Approved firearm. Deputies must bear in
mind the order of this continuum of force is not
absolute, and the situation may require immediate use of a higher level of force.
*

*

*

48a
9.10 USE OF DEADLY FORCE
A Preparation for use of deadly force.
1. To effectively accomplish their duties, it is recognized that during certain situations, an officer
may find himself in a position of having to
threaten the use of deadly force to thwart an arising situation possessing the immediate potential
of leading to the necessity to protect life or prevent
serious bodily injury.
2. Deputies may make special preparations for
the use of deadly force as they observe the need to
do so, consistent with 9.05, above.
*

*

*

e. Generally, an officer may use deadly force only
in situations, which indicate that, the officer or another person may be seriously injured or killed if
the deadly force is not used.
f. “Deadly force” means force that is intended or
known by the actor to cause, or in the manner of
its use or intended use, is capable of causing, death
or serious bodily injury:
1) The discharge of a firearm is deadly force if directed at a person or at a location where persons
may be;
*

*

*

g. It shall be incumbent on every officer to exhaust every reasonable means of employing only
that amount of deadly force necessary to accomplish the purpose.

49a
h. Where feasible, a verbal warning shall be given
to the offender prior to the use of deadly force.
i. Once the immediate danger of death or serious
bodily injury to an officer or another person has
passed, deadly force shall not be used.
j. To the extent an officer has reasonable time for
consideration, he shall never use deadly force
which creates a greater risk to self and others
(such as hostages, bystanders, and other Deputies)
of death or serious bodily injury, than if he did not
use such deadly force. This decision must reflect
the circumstances. . . .
*

*

*

n. The following are examples which may be considered deadly force situations depending on the
circumstance:
1)

Shooting at, or stabbing an officer;

2) Striking an officer with a club or a blunt instrument;
3)

The pointing of a firearm at an officer;

4) Advancement towards an officer by a suspect
exhibiting a firearm, knife or club in a manner and
in close enough proximity to the officer to give reason to believe that the officer may be assaulted;
5) A physical struggle in which the suspect is attempting to remove or has removed the officer’s
firearm or less lethal weaponry from the officer’s
possession.

50a
Plaintiffs maintain that the Policy Manual: (1)
fails to define what an imminent threat is with regard
to the use of deadly force and does not state that that
the immediate threat must be objectively reasonable;
(2) starts with an objective basis for the use of deadly
force but then impermissibly moves to a subjective
standard that allows the officer to use her personal
judgment for what continuum of force is necessary
based on what the officer believes will help control the
situation quickly and safely; (3) sets out the goal of expediency so that an officer need not engage in a prolonged struggle and can skip the continuum of force if
the officer subjectively believes it is the most efficient
way to end the event; and (4) allows an officer to use
deadly force even when there is no immediate danger.
(Plaintiff ’s Response to Bexar County’s Motion for
Summary Judgment, Dkt. 130, at 8).
The test of reasonableness under the Fourth
Amendment is an objective one. L.A. Cty. v. Rettele, 550
U.S. 609, 614 (2007) (citing Graham v. Connor, 490 U.S.
386, 397 (1989)). Under the “objective reasonableness”
standard, the inquiry is whether an officer’s actions are
objectively reasonable in light of the facts and circumstances confronting them. Graham, 490 U.S. at 397.
The question therefore is whether the Policy Manual
comports with this standard.
The thrust of Plaintiffs’ argument is that the Policy Manual shifts from the permissible objective standard to impermissible subjective standards for the use
of deadly force. To support their argument, Plaintiffs
rely on Davis v. Montgomery Cty, No. CIV.A. H:07–505,

51a
2009 WL 1226904 (S.D. Tex. Apr. 30, 2009). In Davis,
the court evaluated whether Montgomery County’s
policy regarding the use of force was consistent with
the Constitution. Id. at *7. A county official, when
asked about Montgomery County’s policy regarding
the use of force, “responded that the key to determining
the appropriate level of force is ‘what the officer may
have felt was reasonable.’ ” Id. The court found that
that statement of policy suggested a subjective standard in violation of the constitutional requirement of objective reasonableness. Id.
In this case, the Policy Manual provides an objective reasonableness standard in the use of force section
9.01: “It is the policy of the Bexar County Sheriff ’s Office that deputies use only the force that reasonably
appears necessary to effectively bring an incident under control, while protecting the lives of the officer and
others the use of force must be objectively reasonable.
The deputy must only use that force which a reasonably prudent officer would use under the same or similar circumstances.” (Bexar County’s Motion for
Summary Judgment, Dkt. 112, Ex. 2). To the contrary,
section 9.10 on deadly force does not provide a similar
objective reasonableness standard. Bexar County attempts to cure that deficiency by arguing that the Policy Manual should be read as a whole. Reading 9.01
(use of force) in conjunction with 9.10 (use of deadly
force) at best leads the Court to conclude the Policy
Manual is ambiguous. It also highlights that the Bexar
County Sheriff was aware of the objective reasonableness standard but yet applied it in only one section.

52a
Plaintiffs further rely on the testimony of Deputies Vasquez and Sanchez. The deputies testified that
they were justified in shooting Flores based on their
subjective beliefs that they were in imminent danger.
(Plaintiffs’ Response to Bexar County’s Motion for
Summary Judgment, Dkt. 130, at 11–12). For example,
Deputy Sanchez was asked: “[C]ould you have legally,
within the Bexar Sheriff County policy and the law the
way you were taught it, shoot and kill that person?” Id.
at 11. His response was: “As long as I feel that he’s a
threat to my life or to Deputy Vasquez or to a family
member, yes.” Id. Their testimony makes sense given
that the Policy Manual states an arguably subjective
standard: “Generally, an officer may use deadly force
only in situations, which indicate that, the officer or
another person may be seriously injured or killed if the
deadly force is not used.” (Sanchez deposition testimony, Dkt. 112, Ex. 2).
In fact, Deputies Vasquez and Sanchez’s supervisor Sergeant Pedraza testified that he was not told,
and did not know, the definition of the term “objectively
reasonable” in a use of force context:
Q: In all of your training with the Bexar
County Sheriff ’s Department, you’ve never
had anybody tell you what an objectively reasonable use of force would be?
A:

No, sir.

(Plaintiffs’ Response to Bexar County’s Motion for
Summary Judgment, Dkt. 130, at 12).

53a
In addition to the testimony of the deputies and
Sergeant Pedraza, Plaintiffs present the deposition
testimony of Sergeant Baeza, who investigated the
shooting, and determined there were no policy violations when the deputies used deadly force based on
their subjective beliefs:
Q: So is your understanding of Bexar County policy that even if a reasonably prudent officer would
not use force, if the subjective belief of the officer
involved was such that he was in fear of his life he
could use force?
A: Yes. If that officer feels like he needs to use
force because he is in fear of his safety, then, yes,
he can use force at that time.
Q: Even if a reasonably prudent officer wouldn’t
have under the same or similar circumstances?
A: [I] mean, if you’re the one that’s in that situation and you’re fearing for your life at that moment . . . then you’re going to be justified in using
the force.
(Plaintiffs’ Response to Bexar County’s Motion for
Summary Judgment, Dkt. 130, at 14).
While Plaintiffs may have offered sufficient evidence showing that Bexar County’s Policy Manual was
inadequate, Plaintiffs also must show that the policy
was adopted with “deliberate indifference.” “Only
where a municipality’s failure to [establish a policy] in
a relevant respect evidences a ‘deliberate indifference’
to the rights of its inhabitants can such a shortcoming
be properly thought of as a city ‘policy or custom’ that

54a
is actionable under § 1983.” City of Canton v. Harris,
489 U.S. 378, 389 (1989) (quoting Monell, 436 U.S. at
694) (bracketed text in original). “Deliberate indifference is a stringent standard of fault” and requires a
showing of “more than negligence or even gross negligence.” Estate of Davis ex rel. McCully v. City of N. Richland Hills, 406 F.3d 375, 381 (5th Cir. 2005) (quoting
City of Canton, 489 U.S. at 388).
In this case, Plaintiffs’ strongest evidence of deliberate indifference is Sergeant Baeza’s testimony, which
conceivably shows that Bexar County, through its internal investigation, had the requisite knowledge and
condoned the deputies’ conduct that was impermissibly based on their subjective belief that they were in
imminent danger. See Davis, 2009 WL 1226904, at *7
(“Plaintiff also provides evidence that the County approved of [the officer’s] actions based on [the officer’s]
feeling that [the suspect] was a threat to him. . . . This
approval is consistent with a policy which condones the
use of deadly force based on a subjective analysis.”).
However, Sergeant Baeza is not a final policymaker for
Bexar County through whom Bexar County could be
liable, and Plaintiffs do not argue otherwise. “A single
decision by a policy maker may, under certain circumstances, constitute a policy for which a [municipality]
may be liable.” Brown v. Bryan County, 219 F.3d 450,
462 (5th Cir. 2000) (internal brackets omitted). However, this “single incident exception” is extremely narrow and gives rise to municipal liability only if the
municipal actor is a final policymaker. Bolton v. City of
Dallas, 541 F.3d 545, 548 (5th Cir. 2008). The question

55a
of “[w]hether a particular official has final policymaking authority is a question of state law,” Rivera v. Houston Indep. Sch. Dist., 349 F.3d 244, 247 (5th Cir.2003)
(emphasis in original), and courts have held that a deputy or sergeant is not an official with policymaking authority for a governmental entity, see, e.g., Johnson v.
Deep E. Texas Reg’l Narcotics Trafficking Task Force,
379 F.3d 293, 309 (5th Cir. 2004) (“[T]he only County
officials or employees whose conduct is complained of
are Mendiola and Courtney, each of whom was only a
deputy sheriff and hence was not a policymaker.”);
Hudson v. Lujan, No. 3:15–CV–3337–G–BK, 2016 WL
3198052, at *3 (N.D. Tex. May 17, 2016), report and
recommendation adopted, No. 3:15–CV–3337–G (BK),
2016 WL 3182024 (N.D. Tex. June 8, 2016) (“[T]here is
no allegation (nor could there be) that the sergeant is
an official with policymaking authority for the City.”)
Finally, Plaintiffs must also show a constitutional
violation whose moving force is that policy. Pineda, 291
F.3d at 328. To succeed, “a plaintiff must show that the
municipal action was taken with the requisite degree
of culpability and must demonstrate a direct causal
link between the municipal action and the deprivation
of federal rights.” Bd. of the County Comm’rs v. Brown,
520 U.S. 397, 404 (1997). Again, Plaintiffs point to the
testimony of people who are not final policymakers: the
deputies and their subjective belief that Flores posed
an imminent threat that led them to shoot him, to Sergeant Pedraza’s testimony in which he said he neither
knew what objectively reasonable was nor had been
trained on it, and to Sergeant Baeza’s testimony that

56a
the deputies did not violate Bexar County policy. Even
if the testimony shows a violation of Flores’s constitutional rights and even if the deputies’ actions were the
moving force behind the violation, the decisions of the
deputies and sergeants are not decisions that can be
elevated and attributed to Bexar County. See Valle v.
City of Houston, 613 F.3d 536, 544 (5th Cir. 2010) (holding that a city could not be held liable for a captain’s
decision to order entry into the home, even if it was
“arguably the ‘moving force’ behind the constitutional
violations that resulted in the suspect’s death, because
his decision was not a decision by a final policymaker
of the city”). Accordingly, the Court grants summary
judgment in favor of Bexar County on Plaintiffs’ claims
that Bexar County’s Policy Manual was inadequate.
B. Bexar County’s Training and Supervision
In its motion, Bexar County argues that Plaintiffs
cannot succeed on their claim that Bexar County’s
training pertaining to the use of deadly force and nonlethal control devices and tactics was inadequate.
Bexar County contends that (1) Plaintiffs provide no
specific examples about what training the deputies
should have been received or how their training was
lacking; (2) the Bexar County Sheriff ’s Office provides
a sufficient number of required classes throughout the
year; (3) Bexar County needs only to show that its
training was in compliance with the state-mandated
training standard; and (4) Plaintiffs cannot show that
“TCOLE training” is inadequate.

57a
Bexar County also asserts that (1) the Bexar
County Sheriff ’s Office supervision policy was adequate on its face; (2) instructions provided to the deputies during the incident are not actionable policy
statements; (3) Plaintiffs fail to show the policy ordered the use of unjustified deadly force and that it
was adopted and maintained with deliberate indifference to the constitutional rights of citizens; and (4)
Bexar County cannot be held liable for the actions of
the supervisors based on this incident alone.
Under certain circumstances, a county can be liable for a failure to train its employees. See Conner v.
Travis Cty., 209 F.3d 794, 796 (5th Cir. 2000). The
plaintiff must show that: “(1) the county’s training policy procedures were inadequate, (2) the county was deliberately indifferent in adopting its training policy,
and (3) the inadequate training policy directly caused
the constitutional violation.” Kitchen v. Dall. Cty., 759
F.3d 468, 484 (5th Cir. 2014). Deliberate indifference
can be established by demonstrating a pattern of violations or, in limited circumstances, by “single-incident
liability” where a violation would result from the
“highly predictable consequence” of a particular failure
to train. Id.
Plaintiffs do not claim that Bexar County’s training is inadequate in the sense that the deputies should
have taken additional education classes; rather, Plaintiffs claim that because the Policy Manual is unconstitutional on its face, Bexar County was aware that a
constitutional violation would likely occur and therefore showed deliberate indifference. (Plaintiffs’ Response

58a
to Bexar County’s Motion for Summary Judgment,
Dkt. 130, at 19). Plaintiffs argue that this case falls
within the narrow exception allowing a single incident
of misconduct to give rise to a claim of deliberate indifference.
A single incident is usually insufficient to demonstrate deliberate indifference. See, e.g., Burge v. St.
Tammany Parish, 336 F.3d 363, 370 (5th Cir. 2003) (explaining that proof of deliberate indifference “generally requires a showing of more than a single instance
of the lack of training or supervision causing a violation of constitutional rights”) (internal quotation
marks omitted). Deliberate indifference requires that
Plaintiffs “show that the failure to train reflects a deliberate or conscious choice to endanger constitutional
rights.” Snyder v. Trepagnier, 142 F.3d 791, 799 (5th
Cir. 1998) (internal quotation marks omitted). The
Fifth Circuit “has been highly reluctant to permit this
exception to swallow the rule that forbids mere respondeat superior liability.” Roberts v. City of Shreveport, 397 F.3d 287, 295 (5th Cir. 2005).
The circumstances necessary to find that a single
instance of failure to train an officer are not present
here. “[T]o hold a municipality liable for failure to train
an officer, it must have been obvious that the highly
predictable consequence of not training its officers was
that they would apply force in such a way that the
Fourth Amendment rights of citizens were at risk.” Peterson v. City of Fort Worth, 588 F.3d 838, 849 (5th Cir.
2009) (internal quotation marks omitted). Plaintiffs
have proffered no evidence showing that Bexar County

59a
was aware of any risk of injury from its failure to adequately train and no evidence that the improper use of
deadly force had caused previous constitutional violations. Plaintiffs presented no material fact question to
show that it should have been obvious to the policymakers that the risk of serious injury was a “highly
predictable consequence” of the failure to train. See id.
Accordingly, the Court grants summary judgment to
Bexar County on Plaintiffs’ claims for training liability.
Plaintiffs also state that Bexar County’s supervision policy was inadequate. When, as here, a plaintiff
alleges a failure to supervise, “the plaintiff must show
that: (1) the supervisor either failed to supervise or
train the subordinate official; (2) a causal link exists
between the failure to train or supervise and the violation of the plaintiff ’s rights; and (3) the failure to train
or supervise amounts to deliberate indifference.” Estate of Davis, 406 F.3d at 381. Plaintiffs, however, fail
to provide any substantive analysis or case law support for their contention in their response. (See Plaintiffs’ Response to Bexar County’s Motion for Summary
Judgment, Dkt. 130). Plaintiffs therefore have failed to
raise a genuine issue of material fact as to supervision,
and Bexar County is entitled to summary judgment on
the issue of whether it is liable for inadequate supervision.

60a
C

Qualified Immunity

Defendants Vasquez and Sanchez claim they are
entitled to qualified immunity. “Qualified immunity
protects public officials from suit unless their conduct
violates a clearly established constitutional right.”
Brumfield v. Hollins, 551 F.3d 322, 326 (5th Cir. 2008)
(internal quotation marks omitted). To overcome a
claim of qualified immunity, a plaintiff must show that
(1) the official violated a statutory or constitutional
right, and (2) the right was “clearly established” at the
time of the challenged conduct. Harlow v. Fitzgerald,
457 U.S. 800, 818 (1982). A district court has discretion
to decide which of the two prongs of qualified-immunity
analysis to tackle first. See Pearson v. Callahan, 555
U.S. 223, 236 (2009).
1. Deputies Vasquez and Sanchez Violated
Flores’s Constitutional Right
The Court first considers whether Defendants
Vasquez and Sanchez violated a constitutional right
when they killed Flores by using excessive force and
whether that use of force was objectively unreasonable.
“A claim that law-enforcement officers used excessive
force to effect a seizure is governed by the Fourth
Amendment’s ‘reasonableness’ standard.” Plumhoff v.
Rickard, 134 S. Ct. 2012, 2020 (2014). “Determining
whether the force used to effect a particular seizure is
reasonable under the Fourth Amendment requires a
careful balancing of the nature and quality of the intrusion on the individual’s Fourth Amendment interests against the countervailing governmental interests

61a
at stake.” Graham, 490 U.S. at 396 (internal quotation
marks omitted).
Reasonableness is judged “from the perspective of
a reasonable officer on the scene, rather than with the
20/20 vision of hindsight.” Id. at 396. “As in other
Fourth Amendment contexts, however, the ‘reasonableness’ inquiry in an excessive force case is an objective
one: the question is whether the officers’ actions are
‘objectively reasonable’ in light of the facts and circumstances confronting them, without regard to their underlying intent or motivation.” Graham, 490 U.S. at
397. The inquiry requires analyzing the totality of the
circumstances. Plumhoff, 134 S. Ct. at 2020.
However, when a law enforcement officer uses
deadly force, the “objective reasonableness balancing
test is constrained. It is objectively unreasonable to use
deadly force unless it is necessary to prevent a suspect’s escape and the officer has probable cause to believe that the suspect poses a significant threat of
death or serious physical injury to the officer or others.” Flores v. City of Palacios, 381 F.3d 391, 399 (5th
Cir. 2004) (quoting Tennessee v. Garner, 471 U.S. 1, 3
(1985)) (internal quotation marks omitted). In Manis v.
Lawson, the Fifth Circuit explained that the focus of
the inquiry is “the act that led [the officer] to discharge
his weapon.” 585 F.3d 839, 845 (5th Cir. 2009).
In this case, the deputies attempt to support their
claim for qualified immunity by arguing that their conduct should be judged based on the circumstances that
confronted them. (Deputies’ Motion for Summary

62a
Judgment, Dkt. 110 at 12). The Court agrees, to an extent. The Court looks to the circumstances they encountered but focuses its inquiry on the moment before
the deputies shot Flores. In the approximately twelve
minutes before they shot Flores, the deputies testified
that Flores disobeyed their commands that he drop his
knife; Vasquez testified that Flores attacked him with
the knife; the deputies testified that Flores opened the
door to a patrol car that had keys in the ignition and
an AR–15 inside; the deputies testified Flores attempted to use Vasquez’s Taser against the deputies;
the deputies testified that Flores stated that he wanted
to commit “suicide by cop;” and the deputies testified
that Flores took his knife from his waistband and positioned the knife in his left hand in a “pre-attack indicator mode, gripping the handle of the knife.” Id.
Construing the facts in a light favorable to the
nonmovant Plaintiffs, the Court finds there are genuine issues of factual dispute with several of the scenarios posed by the deputies. First, Plaintiffs admit that
the deputies radioed that Flores was attempting to enter the patrol car, but it is not clear whether Flores did
open the door or did look inside to see the keys in the
ignition or see the weapon that was inside the SUV.
(Plaintiffs’ Response to Deputies’ Motion for Summary
Judgment, Dkt. 129, at 3). Second, the deputies testified that Flores, when he picked up Vasquez’s Taser
that had been left on the street, “attempted to use [it
or] activate it against the deputies.” (Deputies’ Motion
for Summary Judgment, Dkt. 110, at 12). Although
Flores did pick up the Taser off the street and appears

63a
to have looked at it, he quickly tossed it away. (Flash
drive containing the video, Dkt. 131). A reasonable officer would not have necessarily assumed that Flores
was attempting to activate it in use against the officers. Additionally, Flores threw the Taser away from the
scene, and the deputies do not claim he threw it at
them.
Finally, and perhaps of most significance, there is
disagreement between the parties about the moment
before the deputies shot Flores. In those several seconds, Flores held a knife in one hand and had both of
his hands up. Id. He was not moving towards the deputies. Id. Much of the rest seems to be in dispute, and
the Court must construe the facts in favor of Plaintiffs.
See, e.g., Tolan v. Cotton, 134 S. Ct. 1861, 1868 (2014)
(holding that, in a deadly force case, the Fifth Circuit
improperly failed to credit the nonmovant’s evidence
and draw reasonable inferences in his favor on the defendant’s motion for summary judgment). Defendants’
expert claims that the way Flores held the knife is in a
“pre-attack indicator mode, gripping the handle of the
knife.” (Deputies’ Motion for Summary Judgment, Dkt.
110, at 12). Plaintiffs describe it differently: Flores “exchang[ed] the knife from his right hand to his left hand
while his hands were down at his side.” (Plaintiffs’ Response to Deputies’ Motion for Summary Judgment,
Dkt. 129, at 3). According to Plaintiffs, Flores, who was
no longer next to the patrol car and was back on his
driveway some twenty or more feet away from the deputies, then “raised both of his hands directly above his
head with the knife ‘palmed’ in his left hand” and

64a
“raised his hands in apparent surrender, stood still, his
hands were not moving, his feet were not moving, he
was not moving or advancing toward the Deputies and
no family members of neighbors were outside or in the
vicinity.” Id. at 3–4 & 11.
Plaintiffs emphasize that the deputies testified
they conferred with each other before shooting Flores
and agreed that the encounter had gone on too long
and they were going to end it. Id. at 5 & n.23. Plaintiffs
argue that their discussion before shooting Flores
shows that they were not under an immediate threat
of harm. Id. at 12. Plaintiffs additionally point to discrepancies between what is seen in the video and the
deputies’ testimony, including the distance between
Flores and the deputies and whether Flores was moving towards the deputies. Id. at 13. The parties’ experts
also analyze Flores’ action—or inaction—before the
shots were fired and reach contrary conclusions about
how a reasonable officer would have viewed Flores’s
actions. Id. at 13–15.
The Court must examine this moment carefully
because the Court’s inquiry is confined to whether the
deputies were “in danger at the moment of the threat
that resulted in [their] use of deadly force.” Rockwell v.
Brown, 664 F.3d 985, 993 (5th Cir. 2011) (rejecting
plaintiffs’ urging that the court examine the circumstances surrounding a preceding forced entry that led
to the fatal shooting because the court need only look
to the time of the shooting to determine reasonableness). Based on the circumstances facing Vasquez and

65a
Sanchez right before they shot Flores4 and construing
the facts in favor of Plaintiffs, the Court finds that a
reasonable officer would have concluded that Flores,
who was stationary for several seconds and put his
hands in the air while remaining otherwise motionless,
was no longer resisting and had signaled surrender.
Therefore, the deputies’ use of deadly force was not
reasonable. See Reyes v. Bridgwater, 362 F. App’x 403,
407–09 (5th Cir. Jan. 22, 2010) (holding that it was unreasonable for an officer to use deadly force when the
suspect was armed with a knife “at a safe distance
away from the officers” and was not advancing toward
the officers); see also Cullum v. Siemens, No. SA–12–
CV–49–DAE, 2013 WL 5781203, at *9–10 (W.D. Tex.
Oct. 25, 2013) (finding deadly force was unreasonable
because the armed suspect’s hand was “palm-up in a
‘stop’ gesture” that was “submissive” and he did not
present an immediate threat); Jamison v. Metz, 541
F. App’x 15, 19–20 (2d Cir. Sept. 12, 2013) (holding that
officers were not entitled to qualified immunity where
the suspect had stopped and was in an act of surrendering by putting his hand in the air); Green v. Taylor,
239 F. App’x 952, 958 (6th Cir. Aug. 30, 2007) (holding
4

In addition to the evidence presented by the parties, the
Court notes that “[v]ideo evidence can be dispositive on a motion
for summary judgment . . . [and the Court is] to rely on clear video
evidence when such evidence is available.” Guerra v. Bellino, No.
15–51252, 2017 WL 3397430, at *3 (5th Cir. Aug. 8, 2017) (citing
Scott v. Harris, 550 U.S. 372, 380–81 (2007)). In this case, the
parties do not dispute whether the video should be considered and
both parties contend the video supports their differing versions of
the facts. As noted, the video does not resolve all of the factual
disputes.

66a
that the officer’s use of deadly force was not reasonable
because the suspects were stopped and attempting to
surrender with hands in the air or on the steering
wheel); Robinson v. Nolte, 77 F. App’x 413, 414 (9th Cir.
Oct. 2, 2003) (holding that the use of deadly force violated the suspect’s Fourth Amendment rights where
the suspect had “his arms raised over his head in a
classic surrender position, with a gun in his lap”);
Kanae v. Hodson, 294 F. Supp. 2d 1179, 1185 (D. Haw.
2003) (finding that a reasonable jury could conclude
that the officer’s conduct violated the suspect’s Fourth
Amendment rights when the suspect was shot as he
was stepping away from a car with his hands in the
air).
The deputies assert that several analogous cases
support their entitlement to qualified immunity; however, the facts of those cases are not sufficiently similar
to make the cases analogous: Mullinex v. Luna, 136
S.Ct. 305, 309 (2015) (noting that the fleeing, reportedly intoxicated suspect threatened to shoot officers
during a high-speed car chase and was moments away
from encountering an officer); Manis, 585 F.3d at 844–
45 (holding that the officer was entitled to qualified immunity where the suspect, after being roused when
passed out in his car, reached under the seat of his car
in defiance of the officers’ commands and “moved as if
he had obtained the object he sought” and that fact was
not in dispute); Mendez v. Poitevent, 823 F.3d 326,
332–33 (5th Cir. 2016) (holding that an officer was entitled to qualified immunity where “[i]n the moments
leading up to the shooting, [the suspect] had struggled

67a
violently and aggressively against [the officer] . . . disarmed him of his baton; prevented him from using his
radio to call for backup; potentially attempted to obtain
his gun; concussed and disoriented him; and broke free
of his grasp; at the precise moment the officer’s vision
is impaired and he fears losing consciousness—and the
evidence indicates that it was not apparent to [the officer] that [the suspect] was running away”). The deputies also rely on Guerra v. Bellino, No. 15–51252, 2017
WL 3397430 (5th Cir. Aug. 8, 2017).5 The court’s holding in Guerra is equally inapposite. In Guerra, the suspect was moving rapidly either at the officer or close to
where the officer was previously positioned from just a
car’s length away from the officer. Id. at *4. Whereas in
this case, Flores was not only at a much greater distance from the deputies, but he also was not moving at
all.6
In their motion, the deputies categorize many instances from the incident as “deadly force scenarios,”
(Deputies’ Motion for Summary Judgment, Dkt. 110, at
4–7), and argue that the deputies’ conduct should be
5

The deputies cite to a June decision issued by the Fifth Circuit in the same case, but that opinion was withdrawn and superseded by the opinion discussed in this order.
6
The Court also notes that the deputies encourage this
Court to follow cases that contradict their assertion—discussed
infra—that the Court must focus only on the totality of the circumstances in determining whether deadly force was justified.
For example, in Guerra, the Fifth Circuit stated that the suspect’s
“cooperation prior to the point at which he charged [the officer
was] immaterial” because the officer’s actions “are to be judged at
the time of the shooting.” Guerra, 2017 WL 3397430, at *4.

68a
judged by the totality of the circumstances, not the moment of the shooting, id. at 12–16. Regarding the other
alleged deadly force scenarios, the Court is not called
upon to decide whether it would have been reasonable
for an officer to use deadly force in those other instances since deadly force was not used during those
“scenarios,” and the Court will not speculate about the
reasonableness of deadly force during other parts of
the incident. Moreover, to the extent that the deputies
argue that a previous instance during which it may
have been reasonable for an officer to use deadly force
creates a lasting presumption of reasonableness, the
Court disagrees. While Flores may have posed an immediate and significant threat of harm at some previous point during the encounter, “an exercise of force
that is reasonable at one moment can become unreasonable in the next if the justification for the use of
force has ceased.” Lytle v. Bexar Cty., Tex., 560 F.3d 404,
413 (5th Cir. 2009). In Lytle, the suspect drove a car
towards the police officer, which the Fifth Circuit suggested may have led a reasonable officer to use deadly
force, but the officer did not fire his gun at the car until
the car was moving away from the officer and was
three or four houses away. Id. The Fifth Circuit therefore concluded that “even were we to assume that
shooting at the Taurus was reasonable at the moment
it was backing up toward [the officer], that does not
necessarily make his firing at the vehicle when it was
driving away from him equally reasonable.” Id.
To support their argument regarding the totality
of the circumstances, the deputies rely on Clayton v.

69a
Columbia Casualty Company, in which the Fifth Circuit affirmed qualified immunity for an officer who
shot a suspect, to support their theory. 547 Fed. App’x
645 (5th Cir. Nov. 26, 2013). The Clayton facts are not
analogous.7 In Clayton, the suspect threatened to shoot
the deputy who thought the suspect had a gun; the suspect had a knife and was cutting himself on the neck;
despite demands to stop, the suspect continued to
move towards the deputy; an eyewitness described the
suspect’s movement towards the deputy as “real ugly
like, scary like” and he was shouting at the deputy; the
suspect kept walking “aggressively” while the deputy
once again told him to stop; the deputy was between
the suspect and the victim and other innocent bystanders; and the deputy shot the suspect, whose arms were
at his side, once he was within five feet of the deputy.
See id. at 647–48, 650.
The district court and the Fifth Circuit in Clayton
were confronted with a different factual scenario, and,
on appeal, the main factual point of contention was
whether the suspect was still holding a knife as he aggressively walked towards the deputy. Id. at 651–52.
The Fifth Circuit found “much evidence” to show that
the suspect still had the knife, including the knife
found near the suspect’s body, but the court also concluded that whether the suspect held a knife at the
time he was shot was not outcome determinative. Id.
at 652. Among many differences between the facts of
Clayton and the instant case, the most significant are
7

One similarity to this case is that the suspect in Clayton
also expressed a desire to commit suicide by cop. Id. at 647–48.

70a
that, in Clayton, the suspect was moving towards the
deputy in a scary and aggressive manner, and the deputy fired his gun when the suspect was within only five
feet, arguably almost within the striking zone—with
the suspect’s forward motion—to a reasonable officer.
The moment of the shooting therefore was not as it was
in this case where Flores was not moving in any direction, much less towards the deputies, for several seconds and had his hands in the air and was shot from a
distance of almost thirty feet. (Flash drive containing
video, Dkt. 131, and Plaintiffs’ Expert Report, Dkt. 129,
Ex. 6, at 16–17). Therefore, the Court finds Clayton neither dispositive nor instructive.
Finally, in reaching the conclusion that Plaintiffs
have overcome the first prong of the quality immunity
inquiry, the Court follows the Fifth Circuit’s guidance
that “the reasonableness of an officer’s conduct under
the Fourth Amendment is often a question that requires the input of a jury. This is not only because the
jury must resolve disputed fact issues but also because
the use of juries in such cases strengthens our understanding of Fourth Amendment reasonableness.” Lytle,
560 F.3d at 411.
2. Flores’s Constitutional Right Was Clearly
Established
For the second prong of the qualified immunity inquiry, the Court analyzes whether Flores’s constitutional right was clearly established at the time of the
incident. A right is clearly established when “the

71a
contours of a right are sufficiently clear that every reasonable official would have understood that what [the
officer] was doing violates that right.” Ashcroft v. alKidd, 563 U.S. 731, 741 (2011) (internal quotation
marks and brackets omitted). While a case need not be
directly on point, the “existing precedent must have
placed the statutory or constitutional question beyond
debate.” Id.
In this case, the Court surveys the law as it existed
on August 28, 2015, the date of the shooting. The deputies maintain that Flores’s right was not clearly established but only cite general propositions of how the
analysis proceeds for this second prong and do not argue (1) that there was a lack of relevant case law or (2)
cases held that suspects’ similar rights were not
clearly established. (Deputies’ Reply in support of their
Motion for Summary Judgment, Dkt. 134, at 5–9).8
When he was killed by the deputies, Flores was in plain
sight, was not advancing towards the deputies, raised
his arms in apparent surrender with the knife palmed
in one hand, stood motionless, and was more than
twenty feet away from both deputies. (Flash drive containing video, Dkt. 131, and Plaintiffs’ Expert Report,
Dkt. 129, Ex. 6, at 16–17).
Ample cases show that shooting a suspect under
these circumstances was a violation of clearly established law. See Reyes, 362 F. App’x at 407–09 (holding
that it was unreasonable for an officer to use deadly
8

In their opening brief, the deputies do not substantively address the second prong. (Dkt. 110).

72a
force when the suspect was armed with a knife “at a
safe distance away from the officers” and was not advancing toward the officers); Cullum, 2013 WL
5781203, at *9–10 (finding deadly force was unreasonable because the armed suspect’s hand was “palm-up
in a ‘stop’ gesture” that was “submissive” and he did
not present an immediate threat); Hemphill v. Schott,
141 F.3d 412, 417 (2d Cir. 1998)9 (“[A]ccepting as true,
as we must, [the suspect’s] version of the facts immediately preceding the shooting, [the officer’s] alleged
decision to use potentially deadly force upon a suspect
who stopped and raised his arms in the air when commanded to do so does not qualify as reasonable under
the remaining factors we must consider.”); Jamison,
541 F. App’x at 19–20 (holding that officers were not
entitled to qualified immunity where the suspect had
stopped and was in an act of surrendering by putting
his hand in the air and where their conduct violated
clearly established law); Green, 239 F. App’x at 958
(holding that the officer’s use of deadly force was not
reasonable because the suspects were stopped and attempting to surrender with hands in the air or on the
steering wheel and concluding that it was a violation
of clearly established law); Robinson, 77 F. App’x at 414
(holding that the use of deadly force violated the suspect’s clearly established Fourth Amendment rights
where the suspect had “his arms raised over his head
in a classic surrender position, with a gun in his lap”);
9

This Court may also look to other circuits to determine
whether a right was clearly established. See McClendon v. City of
Columbia, 305 F.3d 314, 329 (5th Cir. 2002) (looking to sister circuits).

73a
Kanae, 294 F. Supp. 2d at 1185 (finding that a reasonable jury could conclude that the officer’s conduct violated the suspect’s Fourth Amendment rights when the
suspect was shot as he was stepping away from a car
with his hands in the air).
Accordingly, this Court concludes that Flores’s
constitutional right was clearly established in August
2015, and Plaintiffs have satisfied the second prong of
the qualified immunity inquiry. The deputies therefore
are not entitled to qualified immunity.
VI. CONCLUSION
For these reasons, the Court GRANTS [112] Bexar
County’s Motion for Summary Judgment and DENIES
[110] Deputies Vasquez and Sanchez’s Motion for Summary Judgment.

